                                          National Science Foundation
                                               4201 Wilson Boulevard
                                              Arlington, Virginia 22230


Office of Inspector General


MEMORANDUM

DATE:

TO:                David A. Elizalde, Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Deborah H. Cureton
                   Associate Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-07-1-019,
         Audit of Abt Associates, Inc.’s FY 2002 Incurred Costs

We contracted with the Defense Contract Audit Agency (DCAA), Boston Branch Office, to
perform a review of costs claimed by Abt Associates, Inc. (Abt) on four NSF awards. DCAA
performed this work in conjunction with an audit requested by US Agency for International
Development, Abt’s federal cognizant agency. The audit covered $XXXX million in costs that
Abt claimed for fiscal year (FY) 20021 on eleven task orders under NSF Contract Numbers EEC-
9815425, EEC-9907043, REC-9912174, and a NSF-General Services Administrative (GSA)
Schedule Contract No. GS-10F-00861. Abt Associates, Inc. provided technical support and
evaluation assistance services to the Division of Education and Engineering Centers (EEC), the
Division of Manufacturing and Industrial Innovation (DMII), and the Division of Research on
Learning in Formal and Informal Settings (DRL).

The objectives of the audit were to 1) determine the adequacy of Abt’s accounting system for
accumulating, reporting, and billing costs to the government; 2) determine the allowability of
direct and indirect costs claimed to NSF by Abt for FY 2002, and 3) recommend contracting
officer determined indirect cost rates for FY 2002. The audit was performed in accordance with
Generally Accepted Government Auditing Standards. The results of the DCAA audit are
summarized below. The DCAA audit report and a schedule of questioned indirect cost by NSF
award is attached. Because of its size, Exhibit H of the auditor’s report, identifying a schedule of
allowable costs for all of Abt’s federal contracts will be transmitted separately to your office.

Results of Accounting System Review

DCAA issued a qualified opinion on Abt’s accounting system. The qualification was based on a
DCAA audit dated January 2005, where DCAA found that Abt had violated Federal Acquisition
Regulations and Cost Accounting Standards. As a result, DCAA qualified its opinion on the
adequacy of Abt’s accounting system for accumulating, reporting, and billing costs on
government contracts. Specifically, in FY 2002, Abt changed the base it used to allocate home

1
    Abt Associates fiscal year is April 1 though March 31.
                                                        NSF OIG Audit Report No. OIG-07-1-019


office (corporate) expenses and was cited for failing to 1) notify the government of its cost
accounting change; 2) submit a cost impact proposal quantifying the effect of the accounting
change, and 3) use the basis of accounting for its corporate costs as identified in its disclosure
statement. As a result, DCAA estimated that xxxxxxx in additional costs were allocated to the
government sector G&A pool, including NSF contract costs, in FY 2002. The cognizant Audit
Agency, USAID, is responsible for resolving Abt’s CAS noncompliance issues. As of the date of
DCAA’s audit report, August 30, 2007, Abt’s CAS noncompliance issues have not been
resolved.

Results of Review of Direct Costs

DCAA did not identify any questioned direct costs on the XXXXXXXX of direct costs that Abt
claimed on the NSF contracts for FY 2002.

Audit Determined Indirect Cost Rates

DCAA determined that Abt’s proposed indirect rates were not acceptable as proposed. The
results of DCAA’s examination and its recommended indirect cost rates are presented below.

Indirect Category                   Proposed   Audit Determined    Questioned
G&A                                 xxxxxx     Xxxxxxxx            Xxxxx
Regular Overhead                    Xxxxxx     Xxxxxxx             Xxxxxx
Site Overhead                       Xxxxxxx    Xxxxxxxx            Xxxxx
Subcontract Consulting Handling     Xxxxxx     Xxxxxx              Xxxxxx
Regular Fringe                      Xxxxxxx    Xxxxxx              Xxxxxx
Temporary Fringe                    xxxxxxx    Xxxxxxx             xxxxxx

DCAA found that there were xxx xxxxxxx in questioned indirect costs in the six types of indirect
cost pools Abt used in calculating indirect costs it claimed on federal contracts. Eighty-eight
percent of the xxxxxxxxx in questioned indirect costs were identified in two indirect cost pools:
the G&A pool was assessed xxxxxxxxxx and regular fringe pool was assessed xxxxxxxxxxx of
the questioned $2.2 million. The primary cost categories in which xxxxxxxxxxxxxxxx was
questioned related to employee stock options for xxxxxxxxxxxxx, because they appear to
represent a distribution of profits to the trust, which is unallowable under the FAR; xxxxxxxx
xxxxx related to the CAS cost accounting change discussed above; and xxxxxxxxxxx resulted
from the application of the questioned fringe rate to the proposed indirect labor claimed. The
audited indirect rates resulted in xxxxxxxxxxxxxxxxx questioned indirect costs related to the
NSF contracts, as shown below.

NSF Contract No.                              Questioned Costs
EEC-9815425                                               xxxxxx
EEC-9907043                                                  xxxx
REC-9912174                                                xxxxx
GSA Schedule No. GS10F-00861                                xxxxx
Total Amount of Indirect Costs Questioned on NSF Awards xxxxxx



                                                2
                                                         NSF OIG Audit Report No. OIG-07-1-019




The auditors recommend that NSF contracting officials: 1) require that Abt Associates submit
revised billings and a revised incurred cost submission for its 2002 NSF contracts to reflect the
audit determined indirect cost rates; 2) coordinate with the US AID Procurement Contracting
Officer,responsible for the CAS non-compliance issues, to determine if there are additional cost
reductions to the Government G&A pool which will affect NSF awards; and 3) apply penalties,
including interest under the FAR to expressly unallowable questioned costs. DCAA’s
recommendation concerning the interest to be recovered on unallowable costs paid will be
furnished when DCAA has received US AID’s determination on penalties to be assessed.

Please coordinate with our office during the resolution period to develop a mutually agreeable
resolution of the audit findings. The findings should not be closed until NSF determines that all
recommendations have been adequately addressed and the proposed corrective actions have been
satisfactorily implemented.

We are providing a copy of this memorandum to the Division Directors of EEC, DMII and
DRL. The responsibility for audit resolution rests with DACS. Accordingly, we ask that no
action be taken concerning the report’s findings without first consulting DACS at (703) 292-
8242.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

   •   Reviewed DCAA’s approach and planning of the audit;
   •   Monitored the progress of the audit at key points;
   •   Coordinated periodic meetings with DCAA and OIG management to discuss audit
       progress, findings and recommendations;
   •   Reviewed the audit report prepared by DCAA to ensure compliance with Generally
       Accepted Government Auditing Standards and Office of Management and Budget
       Circulars; and
   •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on Abt Associates and the conclusions
expressed in the report. The NSF OIG does not express any opinion on Abt’s incurred cost
submissions, the indirect rate applications, or the conclusions presented in DCAA’s audit report.




                                                3
                                                      NSF OIG Audit Report No. OIG-07-1-019



We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Sherrye McGregor at (703) 292-5003 or Jannifer
Jenkins at (703) 292-4996.




Attachment: DCAA Audit Report No. 02171-2002J10100002 (Revised),
            Audit of Abt Associates, Inc. FY 2002 Incurred Costs,
            Spreadsheet showing impact of Questioned Costs on NSF Contracts


cc:    Allen L. Soyster, Division Director, ENG/EEC
       Kesh S. Narayanan, Division Director, ENG/IIP
       Joan Ferrini-Mundy, Division Director, EHR/DRL




                                              4
             DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 02171–2002J10100002
                        (Revised)

                                                                   August 30, 2007

PREPARED FOR: Mr. Harry Pimpong, Branch Chief
              M/OP/PS/CAM, Room 7.08-51
              U.S. Agency for International Development
              1300 Pennsylvania Avenue, N.W.
              Washington, DC 20523-7802

PREPARED BY:      Boston Branch Office
                  495 Summer Street, Suite 336
                  Boston, MA 02210-2192
                      Telephone No.      (617) 753-3777
                      FAX No.            (617) 753-3404
                      E-mail Address     dcaa-fao2171@dcaa.mil

SUBJECT:          Audit of Abt Associates, Inc. FY 2002 Incurred Cost

REFERENCES:       USAID Task Number IG-0-04-013
                  Relevant Dates: See Page 37

CONTRACTOR:       Abt Associates, Inc.
                  55 Wheeler Street
                  Cambridge, MA 02138-1168

REPORT RELEASE RESTRICTIONS: See Page 41
                                                                                     Page
CONTENTS:         Subject of Audit                                                     1
                  Executive Summary                                                    1
                  Scope of Audit                                                       2
                  Results of Audit                                                     4
                  Contractor Organization and Systems                                 35
                  DCAA Personnel and Report Authorization                             37
                  Audit Report Distribution and Restrictions                          38
                  Appendix                                                            42




                             xxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                    SUBJECT OF AUDIT

         As requested under USAID Task Number IG-0-04-013, we examined the Abt Associates,
Inc. September 30, 2002 certified final indirect cost rate proposal and related books and records
for the reimbursement of FY 2002 incurred costs. The purpose of the examination was to
determine allowability of direct and indirect costs and recommend contracting officer-
determined indirect cost rates for fiscal year ending March 31, 2002. The proposed rates apply
primarily to the flexibly priced contracts listed in Exhibit H. A copy of Abt Associates, Inc.
Certificate of Indirect Costs, dated September 30, 2002 is included as Appendix I. The proposal
is the responsibility of the contractor. Our responsibility is to express an opinion based on our
examination.

                                  EXECUTIVE SUMMARY

       Our audit disclosed $1,059,227 of questioned indirect expenses and $1,142,280 of
questioned fringe benefit expenses in FY 2002. We also questioned $5,363 of direct costs
proposed under Government contracts. The following schedule summarizes the effect of our
questioned costs and bases on the proposed rates.

                                                         Audit
                   Indirect Category          Proposed Determined Questioned
           xxxx                                xxxxxx   xxxxxxx    xxxxxx
           xxxxxxxxxxxxxxxx                    Xxxxx    xxxxxxx    xxxxxx
           zxxzxxxxxxxxd                       xxxxxx   xxxxxxx    xxxxxxx
           xxxxxxxxxxxxxxxxxxxxx                xxxxxxx xxxxxxx    xxxxxxx
           xxxxxxxxx                           xxxxxxx xxxxxxx     xxxxxxx
           xxxxxxxxxxxxxxxxxxxxx               xxxxxx   xxxxxxx    xxxxxxx


SIGNIFICANT ISSUES

   1. Under Audit Report No. 2171-2004J19200005, dated January 25, 2005, we identified a
      noncompliance with FAR 52.230-6 because the contractor did not notify the government
      of this cost accounting change or submit impacts related to this change. This report
      disclosed that xxxxxxx of additional indirect costs was allocated to the G&A pool as a
      result of a change in the base used to allocate xxxxxxxxxxxxxx In FY 2002 the
      contractor changed the base used to allocate corporate expenses from the three factor
      formula to gross revenue.

   2. Our examination disclosed xxxxxx of questioned cost in claimed legal expenses. Of the
      xxxxxxxxxxxxxxxxxxxxxxxxx is questioned in the Government sector G&A pool and
      the remaining xxxxxx of costs is allocable to Abt Associate’s private sector pool.




                              xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

   3. We are questioning $xxxxxxxxxxxxxxxxxxxxxxx expenses. The question amount
      represents $xxxxxxxxx of Claimed Employee Stock Option Plan (ESOP) costs, $xxxxxx
      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
      xxxxxxxxxxxxxxxxxxxxx

   4. Our results of audit are qualified pending final determination of Cost Accounting
      Standard non-compliances cited in our Audit Report No. 2171-2004J19200005, dated
      January 25, 2005, citing Abt Associates for a FAR 52.230-5 noncompliance; CAS 403
      non-compliances; and a CAS 410 and CAS 418 noncompliance as discussed below (refer
      to the Qualifications paragraph below).

                                      SCOPE OF AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records evaluated are free of material misstatement. An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
       •   assessing the accounting principles used and significant estimates made by the
           contractor;
       •   evaluating the overall data and records presentation; and
       •   determining the need for technical specialist assistance.

       We evaluated the proposal using the applicable requirements contained in the:

       •   Federal Acquisition Regulation (FAR),
       •   Agency for International Development Acquisition Regulations (AIDAR),
       •   Environmental Protection Agency Acquisition Regulations (EPAAR),
       •   Health & Human Services Acquisition Regulations (HHSAR),
       •   Agriculture Acquisition Regulations (AAR),
       •   Cost Accounting Standards (CAS), and
       •   Applicable contract terms.

       We excluded from our examination direct costs claimed under Government contracts
awarded to Abt by the Department of Labor (DOL), Department of Justice (DOJ), Department of
Education (Do-Ed) and the Department of Housing and Urban Development (HUD) because
these Agencies did not participate in our audit.




                                                2

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)



        For FY 2002, we considered Abt Associates, Inc.’s accounting system to be adequate,
subject to the qualifications noted below, for accumulating, reporting, and billing costs on
government contracts, as described in the “Contractor’s Organization and Systems” section of
this report (page 35). Our audit scope reflects our assessment of control risk and includes tests
of compliance with laws and regulations that we believe provide a reasonable bases for our
opinion.

QUALIFICATIONS

      Our office issued Audit Report No. 2171-2004J19200005, dated January 25, 2005, citing
Abt Associates for a FAR 52.230-6 noncompliance; CAS 403 non-compliances; a CAS 410 and
a CAS 418 noncompliance.

        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxx. We identified a noncompliance with FAR 52.230-6
because the contractor did not notify the government of this cost accounting change or submit
impacts related to this change. We also identified a noncompliance with CAS 403-40(c)(2) in
that the contractor did not use the three factor formula to allocate residual expenses. We
estimated that $xxxxxxxx additional costs were allocated to the Government in FY 2002 as a
result of the contractor not using a xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. Abt’s cost impact
proposal may result in additional cost reductions to the Government G&A pool.

        In the subject noncompliance report we recommended that Abt submit a cost impact
proposal to the cognizant Procurement Contracting Officer (PCO), at the U.S. Agency for
International Development as required by FAR 52.230-6. As of the date of this report the CAS
non-compliance has not been resolved by USAID. If the non-compliances are subsequently
resolved we will issue a supplemental audit report if one is warranted.




                                                 3

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)



                                      RESULTS OF AUDIT

       In our opinion, the contractor’s proposed indirect rates are not acceptable as proposed.
The examination results and recommendations are presented below.

       The contractor did not accept our findings and recommendations and has elected to
withhold comment until a later date.

Direct Costs

        In our opinion, the contractor’s claimed direct costs are acceptable as adjusted by our
examination. We questioned $xxxxxx of direct costs proposed under Government contracts. The
costs represent consultant and other direct costs. The contractor was unable to provide support
for the allowability of the claimed amounts. Questioned direct costs by element within specific
contracts are presented in Exhibit G, page 32. Direct costs not questioned are provisionally
approved pending final acceptance. Final acceptance of amounts proposed under Government
contracts does not take place until performance under the contract is completed and accepted by
the cognizant authorities and the audit responsibilities have been completed.

Indirect Costs Subject to Penalty

        Penalties for Unallowable Costs. Indirect costs questioned in this examination are
believed to be subject to the penalties provided in FAR 42.709. Our recommendations for each
questioned item are included in the notes to Exhibit A and E and their supporting schedules.
Affected contracts are identified in Exhibit H, page 34. Our recommendations concerning the
interest to be recovered on unallowable costs paid will be furnished when we have received your
determination on penalties to be assessed.

        The contractor has not been providing cumulative contract cost data with its incurred cost
submissions and therefore we are unable to develop a Cumulative Allowable Cost Worksheet in
this audit report. The contractor asserts that providing cumulative costs retroactively would be a
manual process and would require additional resources and therefore is not cost effective to the
Company. The contractor has agreed that starting in FY 2003 with the implementation of the
Company’s Oracle Financial Accounting System, to work with DCAA in providing cumulative
contract cost data with its annual incurred cost submissions. The contractor states that providing
cumulative data on contracts awarded prior to FY 2003 would have to be done on a contract by
contract basis at the request of the awarding agency to closeout contracts.




                                                4

                                    xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

This page redacted in its entirety




                                                 5

                                     xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)



        We discussed the results of our examination with Abt representatives xxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxeser,
xxxxxxxxxxxxxxxxxx, in an exit conference held on May 15, 2007. We provided the contractor
with a summary of our audit results and requested the contractor to provide written response for
inclusion in our audit report. We received an email response on July 19, 2007 from the
contractor’s representative xxxxxxxxxxxxxxxx who stated that Abt will reserve comment and
will respond at a later date. Abt has not provided a response as of the date of this report.




                                               6

                                xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                    EXHIBIT A
                                                                                    Page 1 of 13

     STATEMENT OF PROPOSED GENERAL AND ADMINISTRATIVE EXPENSES
                    AND RATE AND RESULTS OF AUDIT




                                 Table redacted in its entirety




Explanatory Notes

1.     Questioned Costs Subject to Penalty

      FAR 42.709 apply to all cost type and fixed-price-incentive contracts in excess of
$500,000, issued on or after October 1, 1995.

       FAR 42.709-1(a)(1) prescribe the penalty assessment where claimed costs are expressly
unallowable under a cost principle in the FAR or applicable agency FAR Supplement. This
penalty is equal to the amount of the disallowed cost plus interest on the amount actually paid.



                                                7

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                      EXHIBIT A
                                                                                      Page 2 of 13

       FAR 42.709-1(a)(2) prescribe the penalty assessment where claimed costs were
determined to be unallowable before the indirect cost settlement proposal submission. This
penalty is equal to twice the amount of such disallowed costs.

       It is our opinion; questioned cost of $xxxxxxxx is subject to the level one penalty
assessment under FAR 42.709-1(a)(1).

        The following notes below detail the unallowable costs that are, in our opinion, subject to
these penalties. Schedule A-1 on page 20 summarizes the unallowable costs subject to penalty
and identifies the amount of costs subject to penalty allocated to contracts with the penalty
clause.

2.      Consultants

        a.   Summary of Conclusions:

        We questioned $xxxxxxxx of claimed indirect consultant costs because the contractor
was unable to furnish us with consultant agreements as required by FAR 31.205-33(f) (1)
pertaining to three consultant transactions in which the contractor was unable to provide
documentation supporting the claimed costs. A summary of the questioned costs are
summarized below:

       ACCOUNT                                                VOUCHER       VENDOR
        NAME             VENDOR NAME                 DEPT     NUMBER           ID        AMOUNT
     CONSULTANTS      xxxxxxxxxxxxxxxxxxxxx           548      489419        114280      xxxxxxxx
     CONSULTANTS      xxxxxxxxxxxxxxxxxxxxx.          968      481377        114280        xxxxxxx
     CONSULTANTS           xxxxxxxxxxxx               968      486991        116312          xxxxx
                              TOTAL                                                       $xxxxxxx




                                                 8

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                      EXHIBIT A
                                                                                      Page 3 of 13

        Of the amount questioned, $ xxxxxxx questioned in the contractor’s Government sector
indirect pools as follows and the remaining $xxxxxx is applicable to the private sector pool:

               Government Sector Pool                 Amount
               xxxxxxxxxxxxxxxxxx                     $ xxx
               xxxxxxxxxxxxx                            xxxx
               xxxxxxxxxxxxxx                          xxxxx
               xxxxx                                    xxxx
                 xxxxxxxxxxxxxx                       $xxxxx

        We questioned the costs in accordance with FAR 31.201-2(d), determining allowability,
which states the contractor is responsible for accounting for costs appropriately and for
maintaining records, including supporting documentation, adequate to demonstrate that costs
claimed have been incurred, are allocable to the contract, and comply with applicable cost
principles in this subpart and agency supplements.

       b. Basis of Contractor’s Cost:

        The contractor’s general ledger account 1520 reflects $xxxxxxxxx of indirect consultant
costs incurred during fiscal year 2002. The contractor voluntarily deleted $xxxxxxx of
unallowable consultant costs and claimed consultant costs in the amount $xxxxxxxxx in fiscal
year 2002.

       c. Audit Evaluation:

       We requested a detailed transaction listing of the indirect consultant costs reflected in the
contractor’s FY 2002 general ledger. We reconciled the detailed transaction listing to the
general ledger indirect consultant account. We selected a sample of indirect consultant costs and
examined the supporting documentation for compliance with FAR, CAS, applicable agency
guidelines, and Abt’s accounting policies and procedures.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.




                                                 9

                                  xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                                             EXHIBIT A
                                                                                                             Page 4 of 13

3.         Legal

           a. Summary of Conclusions:

       Based on our evaluation we are questioning $xxxxxxx of claimed legal expenses. Of the
$xxxxxxx questioned, $xxxxxx is questioned in the Government sector G&A pool as follows.
The remaining $xxxxxx of costs is allocable to Abt Associate’s private sector pool.

                       Government Sector Pool                       Amount
                       xxxxxxxxxxxxxxxxx                            $      xx
                       xxxxxxxxxxxxxx                                   xxxxx
                       xxxxxxxxxxxx                                     xxxxx
                       xxxxxxxx                                       xxxxxxx
                         Total                                      $xxxxxxx

           Details of our questioned Legal costs are provided in the schedule and notes below:

 Dept      Amount      Source   No. Voucher   Vendor ID             Vendor Name                   PD Invoice No.   Questioned      Notes
 505        8,602.60     A      003 490055     107661     xxxxxxxxxxxxxxxxxxxxxxx.                13   033102              xxxxx     (i)
 578       18,799.60     A      002 487091     111856     xxxxxxxxxxxxxxxxxxxx                    12   242796              xxxxx     (ii)
 578        3,283.02     A      003 468975     114600     xxxxxxxxxxxxxxxxxx                      01   145599              xxxxx    (iii)
 578       24,742.50     A      002 482000     300274     xxxxxxxxxxxxxxxxxxxx.                   09    84533             xxxxxx    (iv)
 578       21,809.97     A      003 473799     300274     xxxxxxxxxxxxxxxxxxxxx                   04    76081              xxxxx     (v
 578       20,788.62     A      001 485317     300274     Xxxxxxxxxxxxxxxxxxxxx                   11    85965             xxxxxx    (vi)
 548        9,115.00     A      440 000000     115198     xxxxxxxxxxxxxxxxxxxx.                   04                       xxxxx    (vi)
 578       62,017.28     A      475 000000     117067     xxxxxxxxxxxxxxxxxxx                     13                      xxxxxx    (vi)
                                                                             Total Questioned                           xxxxxxxx

                                                           Allocated to the Private Sector Pool                         xxxxxx
                                                                   Gov't Sector Questioned Cost                        xxxxxxx


     (i)        The invoice does not provided any details of services provided. We requested
                additional information but the contractor never responded. Therefore we questioned
                the costs in accordance with FAR 31.201-2(d), Determining Allowability. A
                contractor is responsible for accounting for costs appropriately and for maintaining
                records, including supporting documentation, adequate to demonstrate that costs
                claimed have been incurred, are allocable to the contract, and comply with applicable
                cost principles in this subpart and agency supplements.




                                                             10

                                          xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                      EXHIBIT A
                                                                                      Page 5 of 13

   (ii)    We questioned $xxxxxxx based on FAR 31.205-27, Organization Costs. The
           contractor's legal invoice under voucher number 487091 dated March 30, 2002,
           related to legal efforts pertaining to the possible acquisition of a portion of Arthur D.
           Little, Inc located in Cambridge, MA. FAR 31.205-27 states that expenditures in
           connection with planning or executing the organization or reorganization of the
           corporate structure of a business, including mergers and acquisitions are unallowable.
           The amount questioned is expressly unallowable and subject to subject to level I
           penalty per FAR 42.709. Refer to Schedule A-1.

   (iii)   Legal service was provided for Safe Science, Inc. We requested additional
           information supporting the claimed costs but the contractor never responded.
           Therefore we questioned the costs in accordance with FAR 31.201-2(d), Determining
           Allowability. A contractor is responsible for accounting for costs appropriately and
           for maintaining records, including supporting documentation, adequate to
           demonstrate that costs claimed have been incurred, are allocable to the contract, and
           comply with applicable cost principles in this subpart and agency supplements.

   (iv)    Invoice reflects significant legal effort for the Jordan PHCI investigation and shows
           DCAA audit issues related to voluntary deletions. We requested additional
           information supporting the claimed amount but the contractor never responded.
           Therefore we questioned the costs in accordance with FAR 31.201-2(d), Determining
           Allowability. A contractor is responsible for accounting for costs appropriately and
           for maintaining records, including supporting documentation, adequate to
           demonstrate that costs claimed have been incurred, are allocable to the contract, and
           comply with applicable cost principles in this subpart and agency supplements.

   (v)     Significant legal effort was incurred for internal investigation and IHA
           reorganization. We requested additional details of these activities however the
           contractor never responded. Therefore we questioned the costs in accordance with
           FAR 31.201-2(d), Determining Allowability. A contractor is responsible for
           accounting for costs appropriately and for maintaining records, including supporting
           documentation, adequate to demonstrate that costs claimed have been incurred, are
           allocable to the contract, and comply with applicable cost principles in this subpart
           and agency supplements.




                                                11

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                     EXHIBIT A
                                                                                     Page 6 of 13

   (vi)      The contractor did not provide any documentation to support these transactions and
             therefore we question the claimed amounts in accordance with FAR 31.201-2(d),
             Determining Allowability. A contractor is responsible for accounting for costs
             appropriately and for maintaining records, including supporting documentation,
             adequate to demonstrate that costs claimed have been incurred, are allocable to the
             contract, and comply with applicable cost principles in this subpart and agency
             supplements.

      Of the amount questioned, $xxxxx is expressly unallowable and subject to level I penalty
per FAR 42.709. Refer to Schedule A-1.

          b. Basis of Contractor’s Cost:

       The contractor’s general ledger account 1725 reflects $808,940 of legal costs incurred
during fiscal year 2002. The contractor voluntarily deleted $105,968 of unallowable legal costs
and claimed legal costs in the amount $702,972 in fiscal year 2002.

          c. Audit Evaluation:

       We requested the transaction level detail of legal expenses incurred in FY 2002. We
reconciled the transaction level detail to the contractor’s FY 2002 trial balance for expense
account 1725. We selected a sample of legal transactions and examined the supporting
documentation for compliance with the provisions of FAR, Supplemental Agency guidelines,
CAS, and Abt’s accounting policies and procedures.

          d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.




                                                12

                                  xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                     EXHIBIT A
                                                                                     Page 7 of 13

4.     State Tax Expense

       a. Summary of Conclusions:

        Based on our analysis we are questioning $xxxxxx in accordance with FAR 31.205-7(b),
Contingency. Of the amount questioned, $xxxxxx is questioned in the Government sector G&A
pool and the remaining amount is applicable to the private sector pool. In FY 2002 the
contractor booked a reserve in the amount of $xxxxxx to ensure the company had sufficient
funds on hand in case they were selected for a tax audit. According to the contractor’s
representative, a tax audit was not performed during FY 2002 nor was the reserve adjusted in
that year’s incurred cost submission. FAR 31.205-7(b) states that costs for contingencies are
generally unallowable for historical costing purposes because such costing deals with costs
incurred and recorded on the contractor’s books.

       b. Basis of Contractor’s Cost:

      In FY 2002 the contractor booked a reserve in the amount of $xxxxxx to ensure the
company had sufficient funds in the case of a tax audit.

       c. Audit Evaluation:

         We requested the transaction level detail of claimed state tax expenses. We reconciled
the detailed transaction listing to the FY 2002 trial balance amount. We scanned the transaction
listing for unusual entries and requested the source documents supporting the claimed amounts.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.




                                                13

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
          Audit Report No. 02171-2002J10100002 (Revised)

                                                                                                       EXHIBIT A
                                                                                                       Page 8 of 13

          5.       Marketing

                   a. Summary of Conclusions:

                 Our examination disclosed questioned Marketing expenses of $xxxxxx. Of the amount
          questioned $xxxxxx is questioned in the G&A pool and the remaining $xxxxxx is questioned in
          the subcontract/consultant handling pool (Exhibit D). Details of our questioned costs are as
          presented in the schedule and referenced notes below.

Project        Amount    Voucher   Vendor No.                 Vendor           PD            Description     Questioned   Not
 2221           10,000   479840     117627      xxxxxxxxxxxxxxxx               07   CONFERENCE SPONSER           xxxxxx (i)
 2055            2,495   772242     004564      xxxxxxxxxxxxxxxxxxxxxxxxxx     06   ER091101                      xxxxxxx (ii)
 2081            1,677   487413     113412      xxxxxxxxxxxxxxxxxxxxxxxxxxxx   12   SUPPLIES                      xxxxxx   (iii)
 2034            1,650   471804     304225      xxxxA                          03   FEES & DUES                    Xxx (iv)
 2055            7,292   479720     117304      xxxxxxxxxxx                    07   PROFF                         xxxxxx   (v
 2129            4,436   776110     015438      xxxxxxxxxxxxxxxxxxxx           11   RECLAS                        xxxxx (v
 2170            1,252   777286     015553      xxxxxxxxxxxxxxxxxx             13                                 xxxxx (v
                                                                                                             $   xxxxx
                   (i)     We questioned $xxxxx question based on FAR 31.205-8, which states that
                   contributions or donations, including cash, property and services, regardless of recipient,
                   are unallowable. We also consider the questioned costs as unallowable per FAR 31.205-
                   1(f)(5), costs of promotional material, motion pictures, videotapes, brochures, handouts,
                   magazines, and other media that are designed to call favorable attention to the contractor
                   and its activities. The questioned amount represents a contribution to the 2001 National
                   Conference on Tobacco and Health and as a conference sponsor be recognized on the
                   conference web site, program book and signage in the Marriot Hotel. The questioned
                   costs are expressly unallowable and subject to level one penalty under FAR 42.709.
                   Refer to the penalty calculation on Schedule A-1.

                   (ii) We questioned $xxxxx as unallowable entertainment expenses per FAR 31.205-14.
                   The questioned amount represents a dinner for 31 individuals who dined at a restaurant in
                   Bethesda, MD on September 9, 2001. The only purpose provided was a reference that
                   these individuals attended a non-Federal Business Development training course. There
                   was no other details regarding the reason for the dinner nor was there a cost breakdown
                   of the meal. The questioned costs are expressly unallowable and subject to level one
                   penalty under FAR 42.709. Refer to the penalty calculation on Schedule A-1.

                   (iii) We questioned $xxxxx as unallowable public relations costs per 31.205-1(f)(6). The
                   questioned amount represents an invoice from Emily’s Specialty Products of Wellesley,
                   MA for the purchase of 50 pocket tee shirts and 100 tote bags. FAR 31.205-1(f)(6) states
                   that costs of souvenirs, models, imprinted clothing buttons, and other mementos provided
                   to customers and the public are unallowable. The questioned costs are expressly
                   unallowable and subject to level one penalty under FAR 42.709. Refer to the penalty
                   calculation on Schedule A-1.
                                                                 14

                                                xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)



                                                                                     EXHIBIT A
                                                                                     Page 9 of 13

       (iv) We questioned $330 as unallowable lobbying costs per FAR 31.205-22. The
       contractor paid $1,650 for a membership in the National Council of State Housing
       Agencies (NCSHA). Twenty percent ($330) of NCSHA activities are defined as
       lobbying. The questioned costs are expressly unallowable and subject to level one
       penalty under FAR 42.709. Refer to the penalty calculation on Schedule A-1.

       (v) We questioned $xxxxxx based on FAR 31.201-2(d), Determining Allowability
       because the contractor did not provide documentation to support the claimed costs
       amounts. This regulation states that a contractor is responsible for accounting for costs
       appropriately and for maintaining records, including supporting documentation, adequate
       to demonstrate that costs claimed have been incurred, are allocable to the contract, and
       comply with applicable cost principles in this subpart and agency supplements.

        Of the amount questioned $xxxxxx of the questioned costs is expressly unallowable and
subject to level I penalty per FAR 42.709. Refer to Schedule A-1.

       b. Basis of Contractor’s Cost:

        The contractor claimed marketing expenses in the amount $xxxxxxx (exclusive of fringe
benefits) during FY 2002. The contractor’s project level detail summary reflects that the
contractor charged the claimed marketing expenses to xxxxxxxxxx projects during FY 2002.

       c. Audit Evaluation:

        We requested the project level detail of marketing expenses (dept 950) claimed by Abt in
FY 2002. We reconciled the marketing project level detail to the amount claimed in the
contractor’s FY 2002 incurred cost submission Schedule B-1. We examined the marketing
project costs to identify any unusual marketing charges. We selected a sample of marketing
projects and requested the supporting documentation required by FAR, CAS and contractor
policies and procedures. We also selected a sample of detail marketing ODC and consultant
expenses and tested the supporting documentation for compliance with FAR, CAS, and company
policies and procedures.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.




                                                15

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                     EXHIBIT A
                                                                                    Page 10 of 13

6.     Bid and Proposal Costs:

       a. Summary of Conclusions:

        Based on our evaluation of the Abt Associate’s B&P costs claimed in FY 2002, we are
questioning $xxxxx The contractor was unable to support two adjustments made to consultant
costs under project number 3182 in the amount of $xxxx and project number 3459 in the amount
of $xxxxx. Based on the contractor’s lack of documentation to support these adjustments, we
question $xxxx as unallowable in accordance with FAR 31.201-2(d), Determining Allowability.
This regulation states that a contractor is responsible for accounting for costs appropriately and
for maintaining records, including supporting documentation, adequate to demonstrate that costs
claimed have been incurred, are allocable to the contract, and comply with applicable cost
principles in this subpart and agency supplements.

       b. Basis of Contractor’s Cost:

        The contractor claimed $xxxxxxx of bid and proposal costs in fiscal year 2002 under the
Government sector G&A pool (department 955). The claimed amount represents labor, fringe
benefits, computer, communications, printing services, consultants, travel, etc., charged to bid
and proposal projects during fiscal year 2002.

       c. Audit Evaluation:

       We reconciled project costs incurred under department 955 to the detailed bid and
proposal expenses claimed in FY 2002. We selected a sample of travel and consultant costs and
requested the source documents supporting each claimed transaction. We tested each transaction
for compliance with FAR, supplemental agency guidelines, CAS and contractor policies and
procedures.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.




                                                16

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                     EXHIBIT A
                                                                                    Page 11 of 13

7.     CAS 403 Non-Compliance

       a. Summary of Conclusions:

        Our office issued several CAS non-compliances under Audit Report No. 2171-
2004J19200005, dated January 25, 2005, the impact resulting from these non-compliances was
$zzzzzzz of additional costs allocated to the G&A pool as a result of a change in allocation base.
In FY 2002 the contractor changed the base used to allocate corporate expenses xxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxx. We identified a noncompliance with FAR 52.230-6 because the
contractor did not notify the government of this cost accounting change or submit impacts
related to this change.

       Our estimate of additional costs allocated to the Government in FY 2002 is $xxxxxxxxx

       b. Basis of Contractor’s Cost:

       In FY 2002, the contractor identified a total of $xxxxxxxx xxxxxxxxxxxxxxxxxxxxxxxx
that were allocated by xxxxxxxxxxxx. Prior to FY 2002, xxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

       c. Audit Evaluation:

        We identified all departments that were included in the G&A pool and allocated by gross
revenue. Effective in FY 2002 the contractor changed the method for allocating residuals from
three factor formula to gross revenue. We computed the impact by applying the forecasted three
factor formula rate to the departments.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.




                                                17

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                      EXHIBIT A
                                                                                     Page 12 of 13

8.     Application of Fringe Rate

       a. Summary of Conclusions:

        We have questioned $xxxxxxxx of regular fringe resulting from the application of our
questioned fringe rate to the proposed indirect labor claimed in the Government sector pools.
The questioned fringe rate is the difference between the contractor proposed rate of xxxxxxxxxx
and the audit recommended rate of xxxxxxxxxxx. Refer to Exhibit E for details of the results of
audit of the contractor’s regular fringe expenses. Details of the questioned fringe by
Government sector overhead pool is summarized below:

               xxxxxxxxxxxxxxxxxx             xxxxxxxxx
               xxxxxxxxxxxxxxxxxx              $xxxxxx
               xxxxxxxxxxx                      xxxxxx
               xxxxxxxxxxxxxxxx                xxxxxxx
               xxxxxxxxxxxx                    xxxxxxx
                     xxxxx                    $xxxxxxx

       b. Basis of Contractor’s Cost:

        The contractor claimed a fringe benefit rate of xxxxxxxxxx in fiscal year 2002. Fringe
benefits include expenses for employee vacation, sick leave, other leave, severance, health and
life insurance, pension contribution, employee stock option plan (ESOP), payroll taxes, etc. Abt
accumulates its pool costs by department and within each department are multiple accounts with
expense transactions. Fringe benefit represents an expense of each department. Abt applies its
fringe benefits rate to the indirect labor within each of its indirect cost pools.

       c. Audit Evaluation:

       The questioned fringe is the result of the application of our questioned fringe rate to the
proposed indirect labor in the subcontract administration, site overhead, regular overhead and
G&A pools.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.




                                                18

                                  xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                      EXHIBIT A
                                                                                     Page 13 of 13

9.     Application of Temporary Fringe Rate

       a. Summary of Conclusions:

        We have questioned $xxxxxx Temporary Fringe resulting from the application of our
questioned fringe rate to the proposed indirect labor claimed in the Government sector pools.
The questioned fringe rate is the difference between the contractor proposed rate of xxxxxxxxx
and the audit recommended rate of xxxxxxxxx. Refer to Exhibit F for details of the results of
audit of the contractor’s regular fringe expenses. Details of the questioned fringe by
Government sector overhead pool is summarized below:

               xxxxxxxxxxxxxxx                xxxxxxxxxx
               xxxxxxxxxxxxxxxxx               $ xxx
               xxxxxxxxxxxx                       xxx
               xxxxxxxxxxxxx                    xxxxx
               xxxxxxxxxxxx                     xxxxx
                     xxxxx                     $xxxxx

       b. Basis of Contractor’s Cost:

        The contractor claimed a fringe benefit rate of xxxxxxxxxx in fiscal year 2002. Fringe
benefits include expenses for employee payroll taxes, 401K matching contribution, and
employee stock option plan (ESOP), etc. Abt accumulates its pool costs by department and
within each department are multiple accounts with expense transactions. Fringe benefit
represents an expense of each department. Abt applies its fringe benefits rate to the indirect
labor within each of its indirect cost pools.

       c. Audit Evaluation:

       The questioned fringe is the result of the application of our questioned fringe rate to the
proposed indirect labor in the subcontract administration, site overhead, regular overhead and
G&A pools.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.




                                                19

                                  xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                               Schedule A-1
                                                                 Page 1 of 1


                          This page redacted in its entirety




                                         20

                            xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                         EXHIBIT B
                                                                                      Page 1 of 2

     STATEMENT OF PROPOSED INDIRECT REGULAR OVERHEAD EXPENSES
                   AND RATE AND RESULTS OF AUDIT




                            This schedule redacted in its entirety




Explanatory Notes

1.    Consultants

      a. Summary of Conclusions:

      Refer to Exhibit A, note 2 for details of our questioned costs and audit evaluation.




                                              21

                                xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                    EXHIBIT B
                                                                                     Page 2 of 2

2.    Legal

      a. Summary of Conclusions:

      Refer to Exhibit A, note 3 for details of our questioned costs and audit evaluation.

3.    Application of Regular Fringe Rate

      a. Summary of Conclusions:

      Refer to Exhibit A, note 8 for details of our questioned costs and audit evaluation.

4.    Application of Temporary Fringe Rate

      a. Summary of Conclusions:

      Refer to Exhibit A, note 9 for details of our questioned costs and audit evaluation.




                                              22

                                xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                    EXHIBIT C
                                                                                     Page 1 of 2

      STATEMENT OF PROPOSED INDIRECT SITE OVERHEAD EXPENSES
                  AND RATE AND RESULTS OF AUDIT




                            This schedule redacted in its entirety




Explanatory Notes

1.    Consultants

      a. Summary of Conclusions:

      Refer to Exhibit A, note 2 for details of our questioned costs and audit evaluation.




                                              23

                                xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                             EXHIBIT C
                                                                              Page 2 of 2

2.    Legal

      a. Summary of Conclusions:

      Refer to Exhibit A, note 3 for details of our questioned costs and audit evaluation.

3.    Application of Regular Fringe Rate

      a. Summary of Conclusions:

      Refer to Exhibit A, note 8 for details of our questioned costs and audit evaluation.

4.    Application of Temporary Fringe Rate

      a. Summary of Conclusions:

      Refer to Exhibit A, note 9 for details of our questioned costs and audit evaluation.




                                              24

                                xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                  EXHIBIT D
                                                                                  Page 1 of 2

     STATEMENT OF PROPOSED INDIRECT SUBCONTRACT/CONSULTANT
               HANDLING RATE AND RESULTS OF AUDIT




                            This schedule redacted in its entirety




Explanatory Notes

1.    Marketing

      a. Summary of Conclusions:

      Refer to Exhibit A, note 5 for details of our questioned costs and audit evaluation.




                                              25

                                xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                           EXHIBIT D
                                                                           Page 2 of 2

2.    Consultants

      a. Summary of Conclusions:

      Refer to Exhibit A, note 2 for details of our questioned costs and audit evaluation.

3.    Legal

      a. Summary of Conclusions:

      Refer to Exhibit A, note 3 for details of our questioned costs and audit evaluation.

4.    Application of Regular Fringe Rate

      a. Summary of Conclusions:

      Refer to Exhibit A, note 8 for details of our questioned costs and audit evaluation.

5.    Application of Temporary Fringe Rate

      a. Summary of Conclusions:

      Refer to Exhibit A, note 9 for details of our questioned costs and audit evaluation.




                                              26

                                xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                 EXHIBIT E
                                                                                  Page 1 of 4

      STATEMENT OF PROPOSED INDIRECT REGULAR FRINGE EXPENSES
                   AND RATE AND RESULTS OF AUDIT


                           This schedule redacted in its entirety




Explanatory Notes

1.     Severance

       a. Summary of Conclusions:

        Based on our evaluation we questioned $xxxxxxx of claimed severance costs related to
severance payments of one Abt employee who voluntarily separated from Abt Associates
effective September 1, 2001. Severance payments for employees who are voluntarily separated
are not allowable in accordance with 31.205-6(g). The cost question of $xxxxxx is expressly
unallowable and subject to level I penalty per FAR 42.709. Refer to Schedule A-1.




                                             27

                               xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                     EXHIBIT E
                                                                                      Page 2 of 4

       b. Basis of Contractor’s Cost:

        The contractor incurred $xxxxxxx of severance expenses in the company’s regular fringe
benefit pool during fiscal year 2002. The company voluntarily withdrew $xxxxxxx for
unallowable severance and claimed $xxxxxxx of severance expense during fiscal year 2002.

       c. Audit Evaluation:

       We requested details of severance expense by employee. We examined the contractor’s
severance expense schedules for compliance with the company’s termination policy and
procedure and FAR. We examined the Abt Associates Inc. “Notice of Employee Action” sheets
and the Termination of Employee Agreements.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.

2.     Bonus

       a. Summary of Conclusions:

        We are questioning $xxxxxx of performance bonus that was being claimed in the regular
fringe pool as a duplication of cost. The contractor claimed $xxxxxx of performance bonus in
the Government sector overhead pool under department 578 and also claimed $xxxxxx in the
regular fringe benefit pool. Abt Associates allocates performance bonus directly to an
employee’s home department in the overhead pools. Therefore, the regular fringe benefit pool is
overstated by $xxxxxx.

       b. Basis of Contractor’s Cost:

        The contractor included $xxxxxx of bonus costs in both Government sector pool and the
regular fringe pool. Abt Associates Inc. allocates performance bonus expense directly to the
employee’s home department in the Government sector overhead pool.




                                                28

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                       EXHIBIT E
                                                                                        Page 3 of 4

       c. Audit Evaluation:

       We examined the contractor’s fringe benefit expense pool and adjustments and found a
duplication of cost related to bonus expenses resulting in the fringe benefit pool being overstated
by $xxxxxx.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.

3.     Employee Stock Option Plan (ESOP)

       a. Summary of Conclusions:

         An employee stock ownership plan whether it is considered a pension or deferred
compensation is a component of compensation and needs to satisfy the general requirements of
FAR 31.205-6 contained in FAR 31.205-6(a) and (b). In addition, as an ESOP it must also
satisfy the requirements of 31.205-6(q) Employee stock ownership plans. FAR 31.205-6(q)(1)
defines an ESOP as a stock bonus plan designed to invest primarily in the stock of the employer
corporation. At the beginning of the fiscal year the contractor estimated the ESOP contribution
to be $xxxxxxxxxx and accrued this amount evenly over FY 2002. During the fiscal year the
contractor made $xxxxxx of adjustments to the ESOP and $xxxxxxx of adjustments to the ESOP
after fiscal year ending March 31, 2002 specifically to maintain the fringe benefit rate at close to
the provisional rate of xxx. Since Abt Associates is a closely held corporation with the majority
of the stock owned by its employees and held in the trust it is also subject to the requirements
FAR 31.205-6(a)(6)(ii)(B). This provision states that compensation must not be a distribution of
profits (which is not an allowable contract cost). Abt did establish an accrual for ESOP costs at
the beginning of the year, however, made several significant increases to ESOP during the fiscal
year and after year end with no basis other than to maintain their fringe rate at close to the
provisional rate of xxx. This appears to represent a distribution of profits to the trust and
therefore $xxxxxxxxxxxxxxxx of Regular Fringe and $xxxxxx of Temporary Fringe) are
considered unallowable.




                                                29

                                  xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                     EXHIBIT E
                                                                                      Page 4 of 4

       b. Basis of Contractor’s Cost:

        The contractor claimed ESOP expenses of $xxxxxxxxx and $xxxxxxx respectively in it’s
regular and temporary fringe benefit pool. Abt maintains an Employee Stock Option Plan
(ESOP) covering substantially all employees of the company meeting minimum service
requirements. The plan is administered by the Board of Directors, which is responsible for
determining the amount of annual contributions to be made to the plan, if any. In FY 2002, the
company contributed $xxxxxxxxx of common stock and $xxxxxxxx of cash to the ESOP. At the
beginning of the fiscal year the contractor estimated the ESOP contribution to be $1,923,636.
The contractor made $xxxxxxx of upward adjustments to the ESOP during FY 2002 and
$xxxxxxxx of upward adjustments to the ESOP after fiscal year ending March 31, 2002
specifically to maintain the fringe benefit rate at close to the provisional rate of xxx.

       c. Audit Evaluation:

       We requested a copy of the ESOP plan documents, detailed transaction listing and source
documents supporting the journal entries. We examined the terms of the ESOP to determine the
reasonableness of the ESOP and tested the plan for allowability in accordance with the
applicable provisions of FAR and CAS. We met with the contractor’s representatives to answer
questions related to the ESOP estimate during the year and gain an understanding as to how the
ESOP expenses were adjusted periodically during the year and at year end.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.




                                                30

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                     EXHIBIT F
                                                                                      Page 1 of 1

     STATEMENT OF PROPOSED INDIRECT TEMPORARY FRINGE EXPENSES
                   AND RATE AND RESULTS OF AUDIT




                            This schedule redacted in its entirety




Explanatory Notes

1.    Employee Stock Option Plan (ESOP)

      a. Summary of Conclusions:

      Refer to Exhibit E, note 3 for details of our questioned costs and audit evaluation.




                                               31

                                xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                      EXHIBIT G
                                                                                       Page 1 of 2

                     STATEMENT OF QUESTIONED DIRECT COSTS

Acct      Name     Client          Contract ID            Voucher       Vendor        Questioned Not
7361      Othe    USAI        520-C-00-00-00035-           474498        115406       $ xxxxx 1
7016    Consultant CDC           200-1999-                 477577        113426           xxxxx 2
                                                                                      $ xxxxx


Explanatory Notes

1.     Consultants

       a. Summary of Conclusions:

        We questioned $xxxxx of the direct consultant cost because the contractor was unable to
furnish us with the consultant agreement as required by FAR 31.205-33(f) (1) and therefore we
have questioned the costs in accordance FAR 31.201-2(d), determining allowability. The
contactor is responsible for accounting for costs appropriately and for maintaining records,
including supporting documentation, adequate to demonstrate that costs claimed have been
incurred, are allocable to the contract, and comply with applicable cost principles in this subpart
and agency supplements.

       b. Basis of Contractor’s Cost:

       The contractor claimed $xxxxxxxxxx of consultant costs during FY 2002. Of the amount
claimed $6,373,687 was claimed under Government auditable contracts.

       c. Audit Evaluation:

       We selected a sample of direct consultant costs and examined the supporting
documentation for compliance with FAR 31.205-33 (Consultant Costs), CAS, applicable
requirements subject to the different agencies, contract provisions, and Abt’s accounting policies
and procedures.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.




                                                32

                                  xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                     EXHIBIT G
                                                                                      Page 2 of 2

2.     Other Direct Costs

       a. Summary of Conclusions:

       Our examination of other direct costs claimed in FY 2002 disclosed questioned costs of
$xxxxx of other direct costs in accordance FAR 31.201-2(d), determining allowability. The
contractor was unable to furnish us with the documentation to support one transaction incurred
under USAID contract number 520-C-00-00-00035-00. The contactor is responsible for
accounting for costs appropriately and for maintaining records, including supporting
documentation, adequate to demonstrate that costs claimed have been incurred, are allocable to
the contract, and comply with applicable cost principles in this subpart and agency supplements.

       b. Basis of Contractor’s Cost:

       The contractor claimed $xxxxx under USAID contract number 520-C-00-00-00035-00
during July of Abt’s fiscal year 2002.

       c. Audit Evaluation:

       We requested a detailed list of transactions of other direct costs claimed in fiscal year
2002. We reconciled the detailed list of transaction to the contractor fiscal year 2002 trial
balance. We then identified transactions incurred under auditable type U.S. Government
Projects. We then selected a sample of transactions incurred under USAID, HHS, EPA, USDA
& NSF contracts. We requested the source documents supporting each claimed transaction.

       d. Contractor’s Reaction:

        In an email dated July 19, 2007, the contractor’s representative stated that the company
will withhold comment and will respond directly to the ACO with regards to the FY 2002
Incurred Cost Audit.




                                                33

                                 xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                                                  EXHIBIT H
                                                                                   Page 1 of 1

           FY 2002 SCHEDULE OF ALLOWABLE COSTS BY CONTRACT

Double click on icon to view worksheet:



                                         C:\Audit Working
                                       Papers\02171_2002J


   1. Abt’s Schedule I to the FY 2002 incurred cost submission indicates that all Government
      contracts included in this schedule are subject to the penalty clause.

   2. We incorporated into the Allowable Cost Schedule contract ceiling rates as follows for
      FY 2002:




                           This schedule redacted in its entirety




                                              34

                               xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)




                          This page redacted in its entirety




                                         35

                            xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)




                          This page redacted in its entirety




                                         36

                            xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                      DCAA PERSONNEL

                                                                       Telephone No.
Primary contact(s) regarding this audit:
         Robert E. Cuozzo, Technical Specialist                        (617) 753-3681
         Charles Bell, Supervisory Auditor                             (617) 753-3702

Other contact(s) regarding this audit report:
         John F. Gay, Branch Manager                                    617-753-3410

                                                                          FAX No.
         Boston Branch Office                                           617-753-3777

                                                                       E-mail Address
         Boston Branch Office                                      dcaa-fao2171@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil/.



AUDIT REPORT AUTHORIZED BY:



                                                           /Signed/
                                                           JOHN F. GAY
                                                           Branch Manager
                                                           DCAA Boston Branch Office




                                                37

                                  xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                                              E-mail Address
Mr. Harry Pimpong, Branch Chief                            hpimpong@usaid.gov
M/OP/PS/CAM, Room 7.08-51                                  Singleaudit@usaid.gov
U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, DC 20523-7802

Office of Inspector General/ Audit/
Financial Audits                                             faudit@usaid.gov
Agency for International Development(USAID)
1300 Pennsyvania Avenue, NW
Washington, DC 20523

Remedio M. Villanueva, Contract Specialist                 RVillanueva@usaid.gov
M/OP/PS/OCC
U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523-7802
Telephone No. 202-712-4926

U.S. Department of Health and Human Services
Center for Medicare and Medicaid Services (CMS)
Mail Stop C-2-21-15
7500 Security Boulevard
Baltimore, MD 21244-1850
ATTN: Marie E. Dodge, Acquisition Cost/Price Analyst       mdodge@cms.hhs.gov
Phone: (410) 786-5152
Fax: (410) 786-9922

Department of Health and Human Services
Office of Inspector General – Audit
Attn: Scott Rehe, Program Analyst                           srehel@os.dhhs.gov
330 Independence Avenue SW
Cohen Bldg, Room 5713
Washington, DC 20201




                                             38

                               xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)



                                                                E-mail Address

Regional Inspector General for Audit, DHHS                    Need e-mail address
John F. Kennedy Federal Building, RM 2425
Boston, MA
(617) 565-2684
(617) 565-3750 FAX

Center for Disease Control
Cost Advisory Activity, Room 2809
2920 Brandywine Road
Atlanta, GA 30341
ATTN: Ms. Sonia Hedrick                                        skh7@CDC.GOV

National Institute of Health
Director, Division of Financial Aid Advisory Services            rf6a@nih.gov
6100 Executive Blvd
Room 6b05
Bethesda, MD 20892-7540

U.S. Environmental Protection Agency (EPA)
Office of Inspector General
Washington Contracts Division (2421)
ATTN: DCAA Monitoring                                       Dcaa.monitoring@epa.gov
Aerial Rios Building
1200 Pennsylvania Avenue NW
Washington, DC 20460
Audit Control No. 2002-000393

U.S. Department of Agriculture (DOA)
Food and Nutrition Service
Contract management Branch
3101 Park Center Drive, Room 228
Alexandria, VA 22302
ATTN: Mr. James Cheves,                                     jim.cheves@fns.usda.gov
        Cost/Price Analyst




                                              39

                                xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)



                                                                  E-mail Address
Joseph T. Rainey, Sr., Contracting Officer                  Joseph.Rainey@fns.usda.gov
USDA/FNS
(703) 305-2260

Regional Inspector General, (USDA)                          HTNGUYEN@oig.usda.gov
Northeast Region
Suite 2-2230
5601 Sunnyside Ave, MS 5300
Beltsville, MD 20705-5300
(301) 504-2100
(301) 504-2437 FAX

National Science Foundation
Office of Inspector General
4201 Wilson Blvd.
Arlington, VA 22230
Stafford II - Suite 705
Attn: Sherrye McGregor, JD                                      smcgrego@nsf.gov

DCAA, Columbia Branch Office                                 Dcaa-fao6311@dcaa.mil
Attention: Branch Manager
Phone (410) 964-2060
Fax (410) 997-3237

DCAA, Rosslyn Branch Office                                  Dcaa-fao6331@dcaa.mil
Branch Manager
Phone 703-325-9022
FAX 703-325-0411

Defense Contract Audit Agency
ATTN: OAL – Sr. Non-DoD FLA                                     DCAA-SRFLA-
                                                               NONDOD@dcaa.mil
8725 John Kingman Road, Suite 2135
Fort Belvoir, VA 220-6219

Mr. Nicholas Piccirillo
Vice President of Compliance                                (Copy furnished thru PCO)
Abt Associates, Inc.
55 Wheeler Street
Cambridge, MA 02138-1168




                                             40

                                xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

RESTRICTIONS




                          This page redacted in its entirety




                                         41

                            xxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 02171-2002J10100002 (Revised)

                                                               APPENDIX 1
                          This page redacted in its entirety




                                         42

                            xxxxxxxxxxxxxxxxxxxxxxxxx
